Ltr to Pltf re

State of New Jersey

Governor

OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF LAW AND PUBLIC SAFETY
DIVISION OF LAW

SHEILA Y. OLIVER

25 MARKET STREET

PHILIP D. MURPHY

PO Box 116

Lt. Governor

TRENTON, NJ 08625-0116

GURBIR S. GREWAL
Attorney General

MICHELLE L. MILLER
Director

December 23, 2020
Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Singh v. Murphy, No. 20-599

Dear Mr. Harris:
Respondents, the Governor of New Jersey and the Secretary of State of New Jersey, write
to request a 30-day extension to file a response to the petition for certiorari in this matter. See Sup.
Ct. R. 30.4. The petition was filed on October 29, 2020 and was placed on this Court’s docket on
November 10, 2020. The Court requested a response on December 7, 2020. The responses are due
on January 6, 2020. An extension of time of 30 days to file a response will create a new due date
of February 8, 2020. Petitioner has not consented to this extension request.
Counsel for Respondents have good cause to request this extension in light of the pressing
deadlines on numerous other litigation matters—as well as the upcoming holidays. Lead attorney
for Respondents, Jeremy Feigenbaum, is managing a range of other litigation matters for the State,
with a significant number of deadlines that took place or will take place during this briefing period.
The deadlines include: New Hampshire v. Massachusetts, No. 22O154 (U.S.) (filed amicus brief
on December 22, 2020); Texas v. United States, No. 18-68 (S.D. Tex.) (oral argument on December
22, 2020); PennEast Pipeline v. New Jersey, No. 19-1039 (U.S.) (filing supplemental brief at the
certiorari stage on December 23, 2020); Defense Distributed v. Grewal, No. 19-50723 (CA5)
(filing petition for certiorari on or before December 31, 2020), Solid Rock v. Murphy, No. 20-6805
(D.N.J.) (opposition to preliminary injunction due January 5, 2020).
In addition, in light of the upcoming holidays, counsel has preplanned vacations between
December 28, 2020 through January 1, 2020.
For these reasons, Respondents request an extension of time to file their opposition to the
petition for a writ of certiorari until February 8, 2020.

Respectfully submitted,

Jeremy Feigenbaum
State Solicitor, State of New Jersey

cc:

All Parties of Record

